SEMIANNUAL REPORT TO CONGRESS




 U.S. ELECTION ASSISTANCE COMMISSION
      OFFICE OF INSPECTOR GENERAL




For the Period:
October 1, 2010, through
March 31, 2011
A Message from the Inspector General


This report is submitted to Congress pursuant to the Inspector General Act of
1978, as amended. It summarizes the activities of the Office of Inspector
General (OIG) for the six-month period ending March 31, 2011.


During this semiannual reporting period, we issued nine reports on audits and
evaluations conducted relating to U.S. Election Assistance Commission (EAC)
programs and operations. Six reports were audits of the states’ uses of Help
America Vote Act (HAVA) funds. One report summarized an audit of two
discretionary grants distributed under the Help America Vote College Program.
Last, two reports detailed audits of the EAC’s FY 2010 financial statements and
compliance with the Federal Information Security Management Act (FISMA).


The audits of states’ uses of HAVA funds show continued problems with
maintaining adequate inventory records of equipment purchased with Federal
funds, common problems with obtaining and maintaining records to support
personnel charges to the HAVA grants, and frequent failures to deposit funds
timely into the interest-bearing election fund resulting in an interest deficit in
the election fund. States should take note of these recurring audit findings and
amend their policies, procedures and practices to ensure that they can
demonstrate that grant funds are spent properly.


The audit that we conducted of the Help America Vote College program
identified a fundamental failure by the grant recipient to maintain records. This
audit raised concerns about the way that discretionary grant funds are handled
by the recipients. The OIG will endeavor to expand its audit portfolio to include
audits of some of the EAC’s smaller grant programs.


The EAC’s annual financial statement and FISMA audits demonstrate continued
improvement in the EAC’s handling of its financial and information technology
systems. We are pleased to see the strides that EAC has made in these areas




                                      i
and will continue to work with EAC and its grant recipients to resolve concerns
related to the use of grant funds distributed by EAC.


Submitted April 29, 2011



Curtis W. Crider
Inspector General




                                    ii
Profile of Performance

                   Audit and Evaluation Reports Issued
       for the Period October 1, 2010, through March 31, 2011




                           Profile of Performance
       for the Period October 1, 2010, through March 31, 2011


Results
Questioned Costs                                $ 1,469,812
Potential Additional Program Funds              $ 1,991,118
Funds to be Put to Better Use                       $0




                                     iii
Table of Contents
                                                       Page




Election Assistance Commission Profile                  1


Office of Inspector General Profile                     2

State Audits                                            4

Reviews of EAC Operations                               7

Discretionary Grant Audits                              8

Other Activities                                        9


Appendices:
  A. Reports Issued                                    12
  B. Monetary Impact of Audit Activities               14
  C. Reports with Questioned Costs                     15
  D. Reports with Potential Additional Program Funds   16
  E. Summary of Reports More Than Six Months Old       17
     Pending Corrective Action at March 31, 2011
  F. Summary of Reports More Than Six Months Old       18
     Pending Management Decision at March 31,
     2011
  G. Reporting Requirements of the Inspector           19
     General Act




                             iv
Election Assistance Commission Profile

The U.S. Election Assistance Commission (EAC or Commission) is a bipartisan,
independent commission consisting of four members. There are two sitting
commissioners: Donetta Davidson and Gineen Bresso, and two vacancies on the
Commission due to the resignations of commissioners in February 2009 and
December 2010. The Commission currently lacks a quorum needed to hold
meetings, conduct business and make policy decisions. 1


The EAC was created by the Help America Vote Act of 2002 (HAVA) to assist
states with improving the administration of elections for Federal office. The
EAC accomplishes this mission by providing funding, innovation, guidance and
information to be used by the states to purchase voting equipment, train
election personnel, and implement new election programs. The EAC has
distributed approximately $3.2 billion in grant funding to the 50 states, the
District of Columbia, Puerto Rico, the U.S. Virgin Islands, Guam and American
Samoa (hereinafter referred to as “states”). With those funds, the states have
purchased voting equipment, established statewide voter registration lists,
implemented provisional voting, provided informational material to voters at
the polling place, and implemented a program to verify the identity of voters
using the statewide voter registration list in combination with other state and
Federal databases.


The EAC also administers six other grant programs aimed at improving pre-
and post-election testing of voting equipment, recruiting and training college-
aged poll workers, conducting mock elections for school-aged children,
improving the collection of data related to elections, and developing assistive
technologies for voting equipment used by disabled voters. The EAC has
awarded nearly $14.5 million under four of the EAC’s six discretionary grant
programs. EAC has announced that an additional $9 million is available for
award under the Accessible Voting Technology Initiative and Pre-Election Logic
and Accuracy Testing and Post-Election Audit Initiative.
1
 According to documents prepared by the EAC General Counsel, the EAC is capable of conducting a large portion
of its business through delegations of authority to the Executive Director and other agency officers.




                                                  1
HAVA made EAC responsible for the first Federally-run testing and certification
program for voting systems. The testing and certification program was begun
in 2006. Through this program, the EAC develops standards for voting
equipment, accredits laboratories, and reviews and certifies voting equipment
based upon the tests performed by the accredited laboratories.


The EAC is responsible for administering the National Voter Registration Act
(NVRA) by promulgating regulations for the content and use of the National
Mail Voter Registration form. The EAC published proposed changes to the
NVRA regulations and accepted comments through November 23, 2010. The
EAC has not published final changes to those regulations.


Office of Inspector General Profile

HAVA required the appointment of an inspector general for the EAC and
amended the Inspector General Act (IG Act) of 1978 (5 U.S.C.A. App. 3) to
identify the EAC as a designated Federal entity (DFE). The Commission
appointed its first inspector general in August 2006 and the EAC’s Office of
Inspector General (OIG) was created.


The OIG has always been a very small office. At many times over the past four
years, the only employee of the OIG has been the inspector general. Assistance
has been provided by detailing employees from other agencies, contracting for
audits to be conducted by independent CPA firms, and, finally, by hiring
permanent staff to the OIG. In 2008, the OIG hired two additional full-time
employees. The OIG continues to be supported by these three positions:
inspector general, assistant inspector general for audits and general counsel.


Despite our small size, we perform all of the duties required of the inspector
general under the IG Act, including:


   •   Conducting and supervising audits, investigations, and other services
       (e.g., evaluations) relating to the programs and operations of the EAC;



                                       2
   •   Providing leadership and coordination and recommending actions to
       management, which (1) promote economy, efficiency, and effectiveness
       in agency programs and operations; and (2) prevent and detect fraud,
       waste, abuse, and mismanagement of government resources; and


   •   Keeping the Commission, management, and Congress fully informed
       regarding problems and deficiencies, and the progress of corrective
       actions.


We have used detailees and contract auditors to augment our staff and to
conduct many of the state and agency audits. In addition, when conducting an
investigation, we work with other Federal government agencies to detail or
contract for investigative services. While the OIG had previously planned to
reduce its reliance on contractors by hiring some additional in-house auditors
and an investigator, the current budget climate will require that we continue to
use the services of contractors and other Federal agencies to assist with our
auditing and investigative needs.


Since the inception of the audit program, the OIG has completed 34 audits of
33 states – with eight additional audits under way. These audits focus on the
HAVA funding provided to and used by the states. The audits cover $2.1 billion
in funding spent by the states. An additional $1.3 billion has not yet been
subject to audit. These remaining funds are comprised of (1) funds spent by
states that have not been audited and (2) unspent funds in the hands of the
states.


The OIG’s program to ensure economy, efficiency and integrity in the use of
funds is not exclusively translated into audits of the EAC and its grant
recipients. The OIG also investigates allegations of waste, fraud, abuse and
mismanagement in EAC programs and operations. The OIG operates a hotline
to receive complaints regarding EAC, its programs, and its funding recipients.
More information regarding complaints received and processed by the OIG
during the current reporting period is available on page 12 of this report.




                                     3
State Audits

HAVA funds have been distributed by the EAC to states for use to improve the
administration of Federal elections by purchasing new equipment, establishing
and operating statewide voter lists, implementing provisional voting, and
verifying the identity of persons who wish to register to vote. The OIG conducts
audits of the states’ use of HAVA funds. Through those audits, the OIG
examines:


   •   whether the recipient used HAVA funds in accordance with HAVA and
       other applicable Federal requirements;
   •   whether the recipient has properly accounted for purchases made with
       HAVA funds and any income derived from those purchases;
   •   whether grant funding was maintained and accounted for in keeping with
       HAVA; and
   •   whether the recipient provided sufficient matching funds and maintained
       Federal monies in a separate, interest-bearing election fund.


During the reporting period, the OIG contracted with the professional auditing
firm to conduct the HAVA funds audits. Six reports were issued based upon
those audits. Below are summaries of those audits:


Louisiana: The audit of the Louisiana Secretary of State’s Election Division (SOS)
revealed that the SOS generally accounted for and expended HAVA funds in
accordance with the HAVA requirements and complied with the financial
management requirements established by the EAC. The SOS also complied with
section 251 requirements. However, the SOS did have some internal control
deficiencies related to following its policies on purchasing and travel and
several parishes did not demonstrate adequate control and security over
property purchased with Federal funds. The SOS generally agreed with the
findings and recommendations and provided corrective action plans. The SOS
disagreed with the finding related to equipment security, as they believed
security was adequate. The EAC has indicated that it will work with the state to
resolve the issues identified in the report.



                                      4
Alabama: This audit of the Alabama Secretary of State (SOS) revealed that the
SOS generally accounted for and expended HAVA funds in accordance with
the HAVA requirements and complied with the financial management
requirements established by the EAC. However, the audit found that the SOS
did not maintain personnel certifications, failed to maintain adequate
property records or security over HAVA funded equipment, did not properly
approve expenditures for sub-awards to counties, incurred questioned costs
by using HAVA funds for non-qualifying promotional activities, and failed to
deposit state and county program income from the sale of voter registration
lists to the HAVA fund. The SOS generally agreed with the findings and
recommendations in the report with the exception of the finding related to
program income. The unresolved issue on program income was referred to
the EAC.

Hawaii: This audit of the Hawaii Office of Elections (HOE) found the HOE did not
account for HAVA funds in accordance with financial management requirements
established by HAVA and the EAC. The report identified the following problems:
   • HOE did not have adequate equipment inventories;
   • HOE used HAVA funds for inappropriate purposes such as payment of
      interest charges and “get out the vote” activities;
   • HOE did not deposit interest earned on HAVA funds into the election
      account;
   • HOE did not properly account for Section 102 funds by including
      $1,339,192 that should have been credited to the state’s general fund;
   • HOE did not conduct periodic reconciliations to ensure that HAVA
      financial reports were accurate; and
   • HOE did not have adequate support for personnel charges, specifically
      semi-annual certifications of time spent on HAVA activities.


In its responses to the findings and recommendations, the HOE generally
agreed with the findings and provided corrective actions. However, the HOE
disputed the finding regarding the use of HAVA funds for purchases of
computer equipment and advertising costs. The EAC indicated that it would
work with the state to resolve the remaining issues identified in the report.




                                     5
West Virginia: The audit of the West Virginia Secretary of State (SOS) revealed
that the SOS failed to account for and expend HAVA funds in accordance with
requirements established by HAVA and the EAC. Findings and
recommendations included:


   •   The state did not transfer interest earned from the state general fund to
       the HAVA revolving fund on loan repayments received from counties prior
       to April 2007, estimated to be $13,021 through August 31, 2009.


   •   The state did not contribute its matching funds requirement to the
       Section 251 HAVA fund on a timely basis, resulting in lost interest
       earnings, estimated to be $96,831 through August 31, 2009.

   •   Seven counties did not maintain equipment inventory records that
       included all of the information required by federal regulations.

   •   The SOS did not complete semi-annual certifications for personnel
       working full-time on HAVA activities.

   •   The state and the counties have not deposited in the election fund
       program income from the sale of voter registration lists funded with
       HAVA proceeds.

   •   The SOS had not reconciled the Election Fund and Revolving Loan Fund
       balances with the records maintained by the State Treasurer’s Office to
       ensure accurate reporting of data.


The SOS generally agreed with the findings contained in the report and
provided corrective action plans. However, the SOS disputed the finding
regarding interest due on the revolving fund. The EAC indicated that it would
work with the state to resolve the finding concerning interest due on the
revolving fund.

New York: The audit of the New York State Board of Elections (BOE) revealed
that in most instances the BOE accounted for and expended HAVA funds in
accordance with the HAVA requirements and complied with the financial
management requirements established by the EAC. However, the audit found


                                     6
that the BOE failed to timely deposit matching funds into the state’s election
fund creating an interest deficit, failed to maintain adequate property records
for HAVA-funded equipment, and did not maintain adequate certifications
and time sheets to support personnel charges to the HAVA grants. The BOE
agreed with the findings and recommendations in the report and agreed to
implement corrective actions.

Utah: Our audit of the Utah Office of the Lieutenant Governor (OLG) concluded
that the OLG generally accounted for and expended HAVA funds in accordance
with the HAVA requirements and complied with the financial management
requirements established by the EAC. However, the audit disclosed that the
OLG failed to maintain adequate property records for HAVA funded equipment,
submitted financial reports to the EAC that included errors, retained interest
earnings on HAVA and state matching funds in the general fund, and did not
deposit program income into the election fund. The OLG agreed with the
findings and recommendations in the report. The EAC has indicated that it will
work with the state to resolve the issues identified in the report.


Reviews of EAC Operations

The OIG oversees the annual audits of EAC’s financial statements and
compliance with the Federal Information Security Management Act (FISMA). The
audits are conducted by an independent public accounting firm. Details of
these audits follow.

EAC Financial Statement Audit


The EAC received an unqualified opinion regarding its fiscal year (FY) 2010
financial statements. The EAC has shown dramatic improvement in its financial
management processes since its first financial statement audit in FY 2008,
which resulted in a disclaimer. During this year’s audit, the auditors identified
one instance of material noncompliance with laws and regulations during their
audit of the EAC’s financial management system. The auditors noted EAC’s
violation of the Purpose Act and Antideficiency Act related to the use of FY
2004 funds dedicated for use as HAVA requirements payments to make grants


                                     7
under the Help America Vote College Program and Mock Election program. The
EAC reported the violations in keeping with federal law and OMB requirements.
Thus, the auditors made no recommendations related to the violations.


FISMA Compliance


The annual FISMA audit revealed that the EAC was in substantial compliance
with FISMA and found that the EAC had taken action to correct control
weaknesses identified in the 2009 audit in most instances. However, the EAC
still needs to complete work in two areas: 1) agency contingency planning and
testing and 2) compliance with requirements for personally identifiable
information and the Privacy Act.


Discretionary Grant Audits

The EAC operates several discretionary grant programs through which research,
education and other election-related activities are conducted by states and
non-governmental organizations. One such grant program is the Help America
Vote College Program. This program funds the recruitment and training of
college-aged students to serve as poll workers and poll assistants. The
activities are conducted in coordination with the local election official in the
jurisdiction(s) where the grant is performed. During the reporting period, the
OIG completed an audit of two grants distributed by the EAC in 2006.


Project Vote


Project Vote received two grants under the Help America Vote College program
in 2006. The two grants were to be used by local offices in Delaware and
Michigan. The two grants were for a total amount of $33,750 ($16,875 each).
Our review found that Project Vote had an informal agreement with the
Association of Community Organizations for Reform Now (ACORN) to perform
the services for these two grants. However, Project Vote could not produce a
contract between it and ACORN. Furthermore, Project Vote could not produce
any accounting records, payroll records, or other receipts to substantiate the



                                      8
charges that were made to the grant. We questioned all $33,750. Project Vote
generally agreed with our findings and agreed to repay the funds.


In addition, we found some documents missing from the EAC’s files that should
have been provided by Project Vote and retained by the EAC. We recommended
that EAC follow the policies and procedures in the grant award for obtaining
and retaining documents. The EAC generally agreed with this recommendation.


Other Activities

Reviews of Legislation, Rules, Regulations and Other Issuances


The OIG conducts regular monitoring of EAC program activities and policy-
making efforts. We provide comment to significant policy statements,
rulemaking and legislation that affects the EAC. During a large part of the
reporting period, the EAC did not have a quorum and did not issue any policy
determinations. The Administration issued several pieces of guidance and
Executive Orders during the reporting period, which we reviewed. In addition,
we reviewed a proposed rule change circulated by another Federal agency.
Last, we participated in surveys and data calls issued by the Council of
Inspectors General on Integrity and Efficiency.


Non-Federal Audits


OMB Circular A-133 establishes audit requirements for State and local
governments, receiving Federal awards. Covered entities that expend $500,000
or more a year in Federal awards are required to obtain an annual organization-
wide audit “single audit”. The audits are conducted by non-Federal auditors,
such as public accounting firms and State auditors. OIG reviews the resulting
audit reports, findings and questioned costs related to EAC awards.


During this reporting period, the OIG referred the following single audits to the
EAC:




                                     9
   •   New York Single Audit for the Year Ended March 31, 2009 (Assignment
       No. E-SA-NY-35-10)
   •   New Mexico Single Audit for the Year Ended June 30, 2009 (Assignment
       No. E-SA-NM-34-11)

Hotline Complaints


The OIG received 14 complaints during the reporting period. Two of those
complaints did not warrant an investigation given the nature of the complaint.
Three of the complainants were referred to the EAC as the appropriate place to
make the complaint and seek remedial action. Four complaints were referred to
other government agencies for response. Three complaints are currently under
review. One complaint was referred to the OIG’s audit division for evaluation.
Following the evaluation, a memorandum was issued to the EAC recommending
corrective action. Finally, we attempted to obtain additional information
regarding one complaint and received no response from the complainant. The
complaint was closed for lack of sufficient information.


Audits and Evaluations In Progress


During the reporting period, the OIG began or continued work on eight audits
of states’ use of HAVA funds. These audits were not completed by the end of
the reporting period.


Matters Referred to Prosecuting Authorities


We are reporting no activities in this category during the reporting period.


Denial of Access to Records


We are reporting no activities in this category during the reporting period.




                                     10
Peer Review Reports


The EAC OIG was subject to a peer review in 2009. The review was conducted
by the Federal Maritime Commission Office of Inspector General (FMC OIG).
The report detailing that review was issued on June 10, 2009. The FMC OIG
gave the EAC OIG a “pass” rating. No material deficiencies were noted.
However, the FMC OIG did address four issues in its letter of comment:


   •   Complete independent statements in keeping with audit policy;
   •   Monitor continuing professional education requirements of auditors
       detailed from other OIGs;
   •   Use work paper check list to ensure that work papers have sufficient
       support for audit documentation and supervisory review; and
   •   Ensure technical checklist for monitoring audits performed by
       independent public accountants is used for each such audit.


Each of these recommendations has been implemented. There are no
outstanding recommendations.




                                    11
                                                      Appendix A
Reports Issued

State Audits     1. Administration of Payments Received Under
                 the Help America Vote Act by the Utah Office of
                 Lieutenant Governor (Assignment Number E-
                 HP-UT-09-10), March 2011


                 2. Administration of Payments Received Under
                 the Help America Vote Act by the New York
                 State Board of Elections (Assignment Number
                 E-HP-NY-08-10), March 2011


                 3. Administration of Payments Received Under
                 the Help America Vote Act by the West Virginia
                 Secretary of State (Assignment Number E-HP-
                 WV-04-09), March 2011


                 4. Administration of Payments Received Under
                 the Help America Vote Act by the Hawaii Office
                 of Elections (Assignment Number E-HP-HI-01-
                 10), February 2011


                 5. Administration of Payments Received Under
                 the Help America Vote Act by the Alabama
                 Secretary of State (Assignment Number E-HP-
                 AL-06-10), January 2011


                 6. Administration of Payments Received Under
                 the Help America Vote Act by the Louisiana
                 Secretary of State’s Election Division
                 (Assignment Number E-HP-LA-03-10), January
                 2011



                          12
Grant Audits     1. Administration of Grant Funds
                 Received Under the Help America Vote College
                 Program by Project Vote (Assignment No. E-
                 HP-SP-05-10), November 2010


EAC Audits       1. Independent Auditor's Reports on the U.S.
                 Election Assistance Commission's Financial
                 Statements for Fiscal Year 2010 (Assignment
                 No. I-PA-EAC-01-10), November 2010


                 2. Audit of Compliance with the Requirements
                 of the Federal Information Security
                 Management Act (Assignment No. I-PA-EAC-
                 02-10), October 2010



Investigations   None
                                                         APPENDIX B
   Monetary Impact of Audit Activities

   Questioned Costs*                                   $ 1,469,812
   Potential Additional Program Funds                  $ 1,991,118
   Funds to Be Put to Better Use                               $0
   Total                                               $ 3,460,930
*Unsupported costs are included in questioned costs.
                                                         APPENDIX C
Reports With Questioned Costs

                                          Questioned    Unsupported
          Category               Number     Costs          Costs

A. For which no management
decision had been made by
the beginning of the reporting
period.                            2       $ 271,226        $0

B. Which were issued during
the reporting period.              6      $ 1,469,812       $0

Subtotals (A + B)                  8      $ 1,741,038       $0

C. For which a management
decision was made during the
reporting period.                  3       $ 304,976        $0

 (i) Dollar value of
recommendations that were
agreed to by management.                   $ 33,750         $0

 (ii) Dollar value of
recommendations not agreed
to by management.                          $ 271,226        $0

D. For which no management
decision has been made by
the end of the reporting
period.                            5      $ 1,436,062       $0
                                              APPENDIX D
Reports With Potential Additional Program Funds

            Category              Number   Dollar Value

A. For which no management
decision had been made by the
beginning of the reporting
period.                             0          $0
B. Which were issued during the
reporting period.                   3      $ 1,991,118

Subtotals (A+B)                     3      $ 1,991,118

C. For which a management
decision was made during the
reporting period.                   0          $0

 (i) Dollar value of
recommendations that were
agreed to by management.                       $0

 (ii) Dollar value of
recommendations that were not
agreed to by management.                       $0

D. For which no management
decision has been made by the
end of the reporting period.        3      $ 1,991,118
                                                                      APPENDIX E
Summary of Reports More Than Six Months Old Pending
Corrective Action at March 31, 2011

The following is a list of audit and evaluation reports that are more than six
months with management decisions for which corrective action has not been
completed. It provides report number, title, issue date, and the number of
recommendations without final corrective action.

I-EV-EAC-01-07B            Assessment of the U.S. Election Assistance
                           Commission’s Program and Financial Operations,
                           February 2008, 8 Recommendations




                                        17
                                                                   APPENDIX F
Summary of Reports More Than Six Months Old Pending
Management Decision at March 31, 2011

This listing includes a summary of audit and evaluation reports that were more
than 6 months old on March 31, 2011 and still pending a management decision.
It provides report number, title, and number of unresolved recommendations.


None.




                                       18
                                                                                  APPENDIX G
Reporting Requirements of the IG Act

 Section of Act                               Requirement                               Page

Section 4(a)(2)       Review of Legislation and Regulations                               9

Section 5(a)(1)       Significant Problems, Abuses, and Deficiencies                    None

Section 5(a)(2)       Recommendations for Corrective Action With Respect to             None
                      Significant Problems, Abuses, and Deficiencies

Section 5(a)(3)       Significant Recommendations From Agency’s Previous Report on
                      Which Corrective Action Has Not Been Completed                     17

Section 5(a)(4)       Matters Referred to Prosecuting Authorities and Resulting         None
                      Convictions

Section 5(a)(5)       Matters Reported to the Head of the Agency                        None

Section 5(a)(6)       List of Reports Issued During the Reporting Period                 12

Section 5(a)(7)       Summary of Significant Reports                                      4

Section 5(a)(8)       Statistical Table – Questioned Costs                               15

Section 5(a)(9)       Statistical Table – Recommendations That Funds Be Put to Better   None
                      Use

Section 5(a)(10)      Summary of Audit Reports Issued Before the Commencement of        None
                      the Reporting Period for Which No Management Decision Has
                      Been Made

Section 5(a)(11)      Significant Revised Management Decisions Made During the          None
                      Reporting Period

Section 5(a)(12)      Significant Management Decisions With Which the Inspector         None
                      General Is in Disagreement

Section 5(a)(13)      Information Described Under Section 804(b) of the Federal         None
                      Financial Management Improvement Act of 1996

Section 5(a)(14)(A)   Peer Review Reports Conducted on U.S. Election Assistance         None
                      Commission Office of Inspector General during the Reporting
                      Period
 Section of Act                                Requirement                            Page
Section 5(a)(14)(B)   Statement of Peer Review Conducted on the U.S. Election          11
                      Assistance Commission Office of Inspector General during a
                      Prior Reporting Period

Section 5(a)(15)      Outstanding Recommendations from a Peer Review Report on        None
                      the U.S. Election Assistance Commission Office of Inspector
                      General

Section 5(a)(16)      Peer Review Reports Conducted by the U.S. Election Assistance   None
                      Commission Office of Inspector General




                                                20
                           Help to ensure efficient, effective, and transparent EAC operations and
OIG’s Mission
                           programs




                           Copies of OIG reports are available on the OIG website,
                           www.eac.gov/inspector_general.

                           Copies of OIG reports can be requested by e-mail: (eacoig@eac.gov).

                           Mail orders should be sent to:
Obtaining Copies
                                U.S. Election Assistance Commission
of OIG Reports
                                Office of Inspector General
                                1201 New York Ave. NW - Suite 300
                                Washington, DC 20005

                           To order by phone: Voice:    (202) 566-3100
                                                 Fax:   (202) 566-0957



                           By Mail:   U.S. Election Assistance Commission
                                      Office of Inspector General
To Report Fraud, Waste
                                      1201 New York Ave. NW - Suite 300
and Abuse Involving the               Washington, DC 20005
U.S. Election Assistance
Commission or Help         E-mail:    eacoig@eac.gov

America Vote Act Funds
                           OIG Hotline: 866-552-0004 (toll free)

                           On-Line Complaint Form: www.eac.gov/inspector_general

                           FAX: 202-566-0957
               Inspector General
              U.S. Election Assistance Commission




This report, as well as other OIG reports and testimony, are available on the internet at:
www.eac.gov/inspector_general
